                                                 NATIONAL
                                                  OFFICE OF SCIENCE
                                                            INSPECTOR
                                                                    FOUNDATION
                                                                      GENERAL                    I



  .
  z                                                 OFFICE OF INVESTIGATIONS

  $
  @4
    !
    %!,      A%\0
                                           CLOSEOUT MEMORANDUM

 Case Number: I07070021                                                                    Page 1 of 1




         The Office of Investigations-Office of Inspector General (OIG) initiated an investigation based
         on information that an organization1 may have misused NSF funds. The investigation found no
         fraud or improprieties relating to the organization's use of NSF funds. Accordingly, no further
         action is warranted and this case is closed.




NSF 01G Form 2 (1 1/02)
